0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Former FERC Chairman Jon. B.
Wellinghoff as Amicus Curiae in Support of Petitioner
in 20-641, LSP Transmission Holdings, LLC v. Katie

Sieben, Dan M. Lipschultz, Matthew Schuerger, John
Tuma, Valerie Means, Steve Kelley, ITC Midwest LLC,
Northern States Power Company d!bla Xcel Energy,

were sent via Two Day Service to the U.S. Supreme
Court, and 3 copies were sent via Two Day Service and
e-mail to the following parties listed below, this 10th
day of December, 2020:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Petitioner

Elizabeth Catherine Kramer
Office of the Minnesota Attorney General
445 Minnesota Street
Suite 1100
Saint Paul, MN 55101
(651) 757-1010
liz.kramer@ag.state.mn.us
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Lisa M. Agrimonti
Leah Chalmers Janus
John Pavelko
Richard D. Snyder
Fredrikson & Byron
200 S. Sixth Street, Suite 4000
Minneapolis, MN 55402-1425
(612) 492-7000
lagrimonti@fredlaw.com
ljanus@fredlaw.com
jpavelko@fredlaw.com
rsnyder@fredlaw.com
Counsel for ITC Midwest LLC

David C. Archer
Lauren W. Linderman
Aaron Daniel Van Oort
Nathaniel Zylstra
Faegre & Drinker
2200 Wells Fargo Center
90 S. Seventh Street
Minneapolis, MN 55402-3901
(612) 766-7000
David.Archer@faegrebd.com
Lauren.Linderman@faegrebd.com
aaron. vanoort@faegrebd.com
Nathaniel.Zylstra@faegrebd.com
Counsel for Northern States Power Company, doing
business as Xcel Energy

Michael H. McGinley
Counsel of Record

Justin M. Romeo
Eric D. Hageman
Dechert LLP
1900 K Street, NW
Washington, DC 20006
(202) 261-3300
michael.mcginley@dechert.com
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 10, 2020.

�ullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

L h«,

dDdO

67riLc. RJ�

Notary Public
[seal]

l O/

